CERTIFICATE OF COMPLIANCE
No
Peter C Benedith
Petitioner,
v
Cuyahoga County of OH et al
Responder.
As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 1810 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 6, 2021.
Peter C Benedith

c
Petitioner-appellant-plaintiff
819 Santee Street Apt 905
Los Angeles Ca 90014
3104830879
petenwe@yahoo.com

July 2021

OFFICE OF THE CLERK
SUPREME COURT, U.S.

